<html>
<title> - TRIALS IN TRANSPARENCY II: IS VA RESPONDING TO CONGRESSIONAL REQUESTS IN A TIMELY MANNER?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                    TRAILS IN TRANSPARENCY II: IS VA

                      RESPONDING TO CONGRESSIONAL

                      REQUESTS IN A TIMELY MANNER?

=======================================================================


                                HEARING

                               before the


                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, APRIL 3, 2014

                               __________

                           Serial No. 113-63

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov





                  U.S. GOVERNMENT PUBLISHING OFFICE
87-676                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Thursday, April 3, 2014

Trails in Transparency II: Is VA Responding to Congressional 
  Requests in a Timely Manner?...................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
    Prepared Statement...........................................    28

Hon. Mike Michaud, Ranking Minority Member.......................     2
    Prepared Statement...........................................    28

                                WITNESS

Sloan D. Gibson, Deputy Secretary................................     5
    Prepared Statement of Solan D. Gibson........................    31

                 QUESTIONS AND RESPONSES FOR THE RECORD

Questions For the Record.........................................    33
Questions and Responses From VA..................................    33

 
 TRIALS IN TRANSPARENCY II: IS VA RESPONDING TO CONGRESSIONAL REQUESTS 
                          IN A TIMELY MANNER?

                              ----------                              


                        Thursday, April 3, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:09 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present:  Representatives Miller, Lamborn, Bilirakis, Roe, 
Runyan, Benishek, Huelskamp, Coffman, Wenstrup, Cook, Jolly, 
Michaud, Brown, Brownley, Titus, Kirkpatrick, Negrete-McLeod, 
O'Rourke, and Walz

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. Good morning, and the hearing will now come 
to order. As the title of today's hearing suggests, we are 
going to conduct our constitutional oversight duties. VA needs 
to respond in a timely manner to our requests for us to be able 
to get our job done.
    With us today is Deputy Secretary Sloan Gibson.
    I want to note for the record and for the Members of this 
committee, we invited Assistant Secretary Joan Mooney to 
testify since she is by title the assistant secretary for 
Congressional and Legislative Affairs and as a presidential 
appointee, she agreed to testify before Congress whenever she 
was called to do so.
    My office received a communication from her just a little 
while ago. First of all, I am shocked she is not in the room. 
Second of all, she sent a communication telling us what you, 
Mr. Secretary, were prepared to answer when she was told 
exactly what we were going to be inquiring about.
    We do not want a 30,000 foot view in testimony in 
responding to our questions. We have already done this once. 
She did a very poor job that day in the hearing and has since 
done a very poor job. And I think her absence today continues 
to show her lack of respect to this committee.
    Her constant lateness with providing information that is 
vital to our constitutional obligation and responsibility, I 
think, is an affront to this committee. It is an affront to the 
veterans that she purports to support, and I hope that you will 
take back to her our personal displeasure of her trying to 
direct where the questions of this committee should go. The 
fact that we want to get into the weeds on some things is 
critical because, as you well know, the weeds have grown very 
tall over the last year or more.
    So suffice it to say I am not happy. For the second time we 
are gathered to hear how we can improve a process that too 
often results in frustration and delay for every Member of this 
committee.
    I want to start with the positives because there are 
positives. Since our last hearing, VA has improved its 
submission of testimony on time. So that is an area where 
progress has been made. I mean, until this progress there were 
many times that we did not receive testimony until the night 
before, sometimes the morning of committee hearings.
    I would also like to recognize what I view as a positive 
tone in your testimony as we have read about improving the 
timely response to the requests that this committee makes. You 
are totally correct in the fact that the Veterans' Affairs 
committees and the VA have a common duty to ensure that we meet 
the Nation's commitment to its veterans.
    Unfortunately, long delayed responses for information, 
documents, or questions continue to plague us. As of Tuesday, 
the average days pending for all 96 requests was 143 with 66 
pending over 60 days and 50 over 100 days. In fact, we have 
three requests pending since 2012. And our oldest outstanding 
request is 666 days pending.
    The last time we visited this subject with Assistant 
Secretary Mooney, she testified regarding the literally 
thousands of inquiries that VA receives from Capitol Hill.
    And, look, I understand the reality. We all understand the 
realities. But I have to continue the committee's active 
oversight of the department. That is our job.
    As they should, Members of the House and Senate take great 
interest in VA and its programs because of the missions that it 
performs and that is not going to change on my watch. I 
understand there are a lot of moving parts involving responses 
to our requests. Many are outside of VA's control.
    But in the end, it is VA's responsibility to provide 
Congress with complete, accurate, and timely answers 
regardless. Perhaps moving the issue up the chain of command 
will help improve VA's performance in this area.
    Mr. Secretary, I thank you for your friendship. I thank you 
for being here to testify today.
    And I want to recognize my good friend, the ranking member, 
Mr. Michaud, for his opening statement.

    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

   OPENING STATEMENT OF MIKE MICHAUD, RANKING MINORITY MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this hearing today.
    This hearing is about accountability for individual 
congressional requests and also an opportunity to discuss what 
can be done to improve the relationship between the VA and this 
committee.
    Mr. Gibson, congratulations, first of all, on your recent 
appointment as deputy secretary for the Department of Veterans 
Affairs and we appreciate that you are here today as well.
    And I am encouraged by the shift in tone conveyed by your 
participation in your written testimony. For the first time, 
the department has clearly, concisely, and publicly indicated 
that the status quo must change. Thank you for that open and 
honest acknowledgment.
    Also from your written testimony and our recent 
conversation, it appears you as the deputy secretary and the 
chief operating officer are taking on the challenge from the 
department perspective. I think that will be a significant 
improvement and I look forward to working with you in a 
collaborative and constructive manner.
    As I have laid out in my discussions with the secretary, I 
have three basic expectations of the VA about customer service.
    My first expectation is that VA is responsive to 
congressional inquiries. While I recognize that our founding 
fathers' construct of the separation of powers, I also 
recognize their construct of checks and balances between these 
separate powers.
    Oversight is a fundamental power provided to Congress and a 
fundamental obligation of Congress. Getting the information 
from the department is crucial for Congress doing its job. This 
is not a civics discussion but directly affects our ability as 
a co-equal branch of government to do our job.
    VA's responses to congressional inquiries should be 
thoughtful, thorough, and complete.
    Since my recent conversation with Secretary Shinseki, a set 
of standard operating procedures addresses responsiveness 
between the committee democratic staff and VA's OCLA has been 
agreed to and put in place. These appear to be working well so 
far.
    I appreciate the VA OCLA's team's willingness to work out 
those SOPs and adhere to them and I hold my staff accountable 
for adhering to our part of that agreement.
    My second expectation is that VA is timely in its response 
to congressional inquiries. I recognize that thoughtful, 
thorough, and complete responses take time. I also recognize 
that, you know, time moves at a different pace in Congress and 
the VA. This is not a judgment. It is a statement of 
acknowledgment that our work occurs at different speeds.
    Reasonable accommodation is somewhat, I believe, in 
between. When a response is needed and what can be provided by 
that date and when a final response will be forthcoming should 
be a frequent routine discussion between our staffs.
    Since the last transparency hearing held by this committee 
in September 2013, we have seen an improvement in the 
timeliness of VA's testimony submissions and response to 
congressional inquiries.
    However, we continue to see substantial delays from one to 
three months on a few individual Members' inquiries tracked by 
the committee staff. And I will defer to those Members to 
discuss their specific inquiries to you directly.
    It is often difficult to get a straight answer on the 
reasons for the delay in response. It appears that the lack of 
timeliness in VA's response to congressional inquiries may in 
part be cumbersome review process that the department has to go 
through both internal and external to the organization 
preparing the response.
    This, Mr. Gibson, is likely the toughest part of your 
challenge to improve the process. However, it behooves everyone 
involved that the review and approval process to work 
collaboratively to change and improve the process.
    No one benefits from frustrated, dysfunctional relationship 
between an administration and Congress, least of all our 
veterans.
    And my final expectation that the VA allows congressional 
Members and staff direct access to subject matter experts 
within the department. This means that the Office of 
Congressional and Legislative Affairs to facilitate, not 
control, but to facilitate the interaction between the VA 
executive and The Hill. For the most part, these interactions 
in my opinion, the OCL lay roles, you know, should be 
transparent to all of us.
    Our staffs hear informally that the VA subject matter 
experts want to talk to us. The experts in your department, 
they really want to talk to us. They want to share the good 
news and the progress they are making. They believe getting 
ahead of the bad news is important. They understand that the 
trust that you mention in your written testimony begins with an 
open, honest communication.
    We in Congress understand the need and value that your 
message has to be consistent. The way to accomplish this is 
through internal department coordination, not a single filter 
through OCLA. Politicians know that during a campaign, you try 
to control the message. During the governing process that comes 
after the election, which we are through, you need to 
collaborate around that message. Failing to do so means 
failure.
    Just recently one of my staff members met a young soldier 
at a professional reception. He was there representing a new 
army program to help soldiers transition from active duty. 
Unable to have a robust discussion about the program at that 
reception, the soldier agreed to follow-up with my staff. 
Within one week, the soldier and my staff exchanged several 
emails, met once, and set up follow-up meetings for other staff 
and Members. There was no red tape, no DoD or army legislative 
affairs' intervention, no delays, no complications.
    That is what I expect from the VA, just a swift, simple, 
direct, you know, doing the business that people in the VA, I 
know, at that staff level want to do without having to be 
filtered through OCLA because that is cumbersome, delays the 
process, increase frustrations, and also makes sure that our 
veterans do not get the services that they need.
    So, Mr. Gibson, I look forward to your testimony today. I 
appreciate your testimony and what you had to say in your 
testimony and I look forward to hearing what we need to do for 
both the Administration and Congress, how we can build that 
trust, have that open line of communication, improve our 
working relationships because that is what we are here for. I 
know that is what you are there for is to do what we can for 
our veterans. We do not need an administrative bureaucracy over 
at OCLA that filters the process, that inhibits the ability of 
the department and this committee to work collaboratively 
together. And I look forward to your discussion that we are 
having here today on this very important issue.
    And with that, Mr. Chairman, I yield back the balance of my 
time.

    [The prepared statement of Hon. Mike Michaud appears in the 
Appendix]

    The Chairman. Thank you very much.
    As I said earlier, the only witness that we have today 
before us is Deputy Secretary Sloan Gibson, a little bit of 
background on Sloan: He graduated in 1975 from West Point and 
qualified as both an airborne soldier and a ranger and served 
as an infantry officer.
    He holds a master's in economics from the University of 
Missouri in Kansas City and a master's in public administration 
from the John F. Kennedy School of Government at Harvard 
University. And following 20 years of service in the banking 
industry, he served as the president and CEO of the USO for 
five years and was confirmed as deputy secretary last February.
    Secretary Gibson, welcome, and you are now recognized for 
five minutes for your opening statement.

STATEMENT OF SLOAN GIBSON, DEPUTY SECRETARY, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Mr. Gibson. Thank you very much, Mr. Chairman.
    Before I begin, I would just like to say that the thoughts 
and prayers of all of us at VA are with the families that were 
affected by yesterday's tragic events at Fort Hood. In my prior 
role, the USO was a critical part of helping that community 
recover and heal. And I know they will need a lot of that kind 
of support again.
    Chairman Miller, Ranking Member Michaud, other 
distinguished Members of the committee, thank you for this 
opportunity to testify on VA's ongoing work to provide our 
congressional partners with timely information.
    Let me also acknowledge representatives of veterans service 
organizations in attendance. Our relationship with VSOs is 
generally a very positive and productive one. We do not always 
agree on every issue, but we work through our differences 
enabling us to best serve veterans, their families, and our 
survivors.
    Just six weeks ago, I was privileged to join Secretary 
Shinseki and more than 340,000 men and women, one-third of whom 
are veterans themselves, who work hard each day to do their 
best for our Nation's veterans.
    I spent the last five and a half years doing all I can to 
support America's servicemembers and military families and as a 
veteran and the son and grandson of veterans, I bring that same 
passion to this opportunity to serve.
    As I reflect on my first weeks at VA, the learning curve is 
steep, but it is deeply gratifying work. Next week, I start on 
an aggressive spring and summer travel schedule to meet with 
veterans and VA employees, the really most important way to 
understand veterans' needs and the work our people in the field 
are doing.
    What is best for our veterans is what guides all of our 
work at VA and that is my singular focus in my role there. That 
is also what connects VA to the Members of this committee, the 
shared goal of doing everything we can to improve the 
healthcare, benefits, services for veterans, their families, 
and survivors.
    All of us at VA are grateful for the commitment and 
sustained support of Congress in both resources and legislative 
authorities. Your support enables us to accomplish our mission.
    Everything we do at VA is built on a foundation of trust, 
the trust of veterans and their families, the trust of the 
American people, and their elected representatives who provide 
the resources essential to our mission. We earn that trust a 
quarter of a million times every day by delivering on our 
promise to care for those who shall have borne the battle.
    We also earn that trust by being good stewards of the 
resources that we are given and that includes providing 
accurate and timely information to those who provide VA 
resources. Anything that erodes that trust does tangible harm 
to veterans.
    I believe the status quo in our working relationship can 
improve. This is not a VA Office of Congressional and 
Legislative Affairs' issue. It is not a Veterans Health 
Administration issue or a Veteran Benefits Administration 
issue. It is a department issue. It is a VA issue.
    That is why I am here and that is why I pledged to do our 
part to improve how VA provides information to this committee 
and seek to work with you in a straightforward, collaborative, 
and constructive manner. I believe that is what veterans expect 
and I know it is what they deserve.
    VA currently provides the committee and other Members of 
Congress a remarkable volume of information that was noted in 
some of the opening statements.
    Since the last hearing on this subject in September of 
2013, our on-time performance for delivering testimony and 
questions for the record is approaching 100 percent, but we 
know we must work to improve the on-time delivery of 
correspondence and other requests for information. And we are 
aggressively working to do that. I ask for this committee's 
positive support and constructive engagement in that process.
    To reiterate, VA and Congress share the same goal to best 
serve veterans, their families, and survivors. We respect 
Congress's important oversight role and pledge to continue to 
work collaboratively and cooperatively with you. When we work 
in that way together, I believe veterans are best served.
    Again, thank you for the opportunity to appear here today 
and for your continued support of veterans. I look forward to 
your questions.

    [The prepared statement of Sloan Gibson appears in the 
Appendix]

    The Chairman. Thank you very much for your testimony.
    We will start off with one round of questions and then if 
we need to go to a second round, we will do that as well.
    Secretary Gibson, one of the key committee concerns is 
about the safety of the VA employees and the veterans who are 
receiving care at VA facilities across the country. No one, 
whether they are an employee or a veteran, should fear for 
their lives at a VA facility, but that is not the case 
unfortunately.
    Let me give you a couple of examples of safety-related 
requests that we have made and are waiting on the department to 
reply.
    The first is in regards to employment of a registered sex 
offender in the women's health unit at the Lebanon, PA Medical 
Center. Representative Jim Gerlach had first raised the issue 
in a letter to the secretary requesting information. He has 
received no response.
    I sent a letter to the secretary dated December 20th, 2013 
requesting all information related to the hiring and 
assignments as well as compliance with OPM hiring guidelines 
and background checks. To date, no reply.
    The second issue involves the death of a patient at the 
Alexandria VA Medical Center in Louisiana following an 
altercation with an employee of the medical center. Again, in a 
December 12th letter to the secretary, I requested all 
information related to the incident including security system 
products and employee records. To date, Mr. Secretary, no 
response.
    When can this committee expect that VA will provide the 
data that we have requested regarding these two cases?
    Mr. Gibson. Mr. Chairman, the safety and security of both 
patients and employee staff at VA installations across the 
country is of paramount concern to us. In these particular 
instances, I am not familiar with the facts of the case, but I 
commit to you that we will provide a status report on those 
promptly.
    I note that Secretary Mooney that you referred to earlier 
is on The Hill every single week, oftentimes multiple times a 
week. She has standing visits on Fridays with members of the 
staff and she would be delighted to visit with members of your 
staff or with you, sir, or I would be delighted to visit with 
you, sir, to discuss the status of the item.
    The Chairman. I do note that Secretary Mooney is not at 
least in the Cannon Building today. She may be on The Hill 
every other day, but she is not here today.
    Mr. Gibson. Yes, sir.
    The Chairman. And this is in the trials and transparency 
Web site that we have posted. So all of this information, and 
this goes back to what I was saying in the middle of my opening 
statement, she knew that we wanted to get into the weeds on 
specific questions. And then shortly before this hearing, we 
get an email from her saying you are not prepared to talk and 
specifics, only at the 30,000 foot level. And, again, that is 
just not acceptable.
    One of the most alarming trends that I see with the 
committee's current outstanding deliverables list is the 
multiple outstanding requests regarding mental healthcare. You 
mentioned the tragic incident at Fort Hood yesterday where 
there appears to be a mental health component, albeit DoD, but 
mental health all the same.
    There are numerous requests from our Oversight Subcommittee 
and our Health Subcommittee regarding a mental health provider 
survey. I understand that requests for this survey which 
include data analysis as well as responses to open-ended 
questions have been echoed in multiple oversight forums 
including committee hearings and staff briefings and by both 
this committee and our counter-parts in the Senate.
    Again, why is it taking so long to get questions answered 
on this vital issue and if you are not prepared to respond to 
that particular question, will you commit to providing me with 
a survey and its results by close of business today and, if 
not, why?
    Mr. Gibson. Mr. Chairman, I recall over the past five years 
from time to time, I would be asked if there was anything that 
kept me awake at night. And my consistent response to that 
question was my concern about our collective ability to meet 
the mental health needs of servicemembers, veterans, and their 
families. This is a personal priority for me. It is also a 
priority for the department.
    I am aware that in the case of this particular request that 
there has been substantial information provided. I believe 
there have also been briefings provided to some of the staff. 
We would be delighted to come, provide a briefing to you, sir, 
at your convenience.
    The Chairman. Thank you. My time has expired.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    And, once again, thank you very much, Mr. Secretary, for 
being here.
    And since we had the last discussion and my previous 
conversations with the secretary about how can we improve the 
relationships between the VA and this committee, and we hear 
over and over again the number of requests that the department 
gets from Members of Congress which I understand there are 
quite a few, so in order to speed up that process, we said, 
well, rather than writing our requests, let's have an informal 
discussion.
    And that gets back to us meeting with subject matter, you 
know, experts that actually want to talk to the committee, but 
that is still a problem because the fact of the matter is we 
still have to wait anywhere from six to eight weeks from OCLA 
giving the approval for subject matter experts to talk to us. 
So that is a frustration.
    So would you please, describe to me your operational 
perspective on how the VA subject matter experts could and 
should interact with Congress?
    Mr. Gibson. Congressman, thanks for the question. You 
brought the issue up the other day when we visited.
    We think it is very important to be able to get timely 
information to Members of this committee for you to exercise 
your oversight responsibilities. You offered this particular 
mechanism as a great example of ways that we can work 
collaboratively where the opportunity exists to provide a 
briefing as opposed to responding to a formal request.
    And my experience, my sense is that when we do that, we 
oftentimes hit the nail on the head and we are able to do it 
much more quickly. Those should happen promptly. And I know in 
the instance that you have referred to, it is pretty clear to 
me that we did not meet that standard.
    We have done so far in the first six months of this year 
217 briefings on The Hill. Every single one of those briefings 
is done by a subject matter expert. So you are right. They are 
delighted to come visit. We are delighted to have them come 
visit. And I commit to you that we will do our best to make the 
responsiveness what it ought to be.
    Mr. Michaud. I mean, what role do you think OCLA has in 
that?
    I can understand during the campaign, the President wanted 
to keep his message focused and, therefore, departments were 
kind of restricted of what they could do during an election 
year, but now is the time to govern. And I think that message 
as far as the department, where the department goes should be 
consistent.
    And part of the problem, quite frankly, is OCLA having to 
be the filter and that is what the delay is from six to eight 
weeks in having us be able to do it. The reason why I gave the 
example with the army folks is that is how DoD does it. I mean, 
within a week, they had several meetings, several email 
discussions. Any time you put a stopper in there where you have 
to get approval, particularly through OCLA, it slows down that 
process.
    And we want to make sure that we can have that ongoing 
conversation. That is one of the reasons why we agreed to have 
these informal discussions with the subject matter experts, but 
that still is a problem.
    So what role do you think OCLA has to be involved in this 
whole process as a filter versus as a facilitator which we are 
trying to do is facilitate?
    Mr. Gibson. I think you just answered your own question. It 
is a facilitator. When there is interest in a particular topic, 
there is a need for Members of this Committee and other Members 
of Congress to be able to plug in some more within the 
organization. And, frankly, I believe that ought to be within 
the Office of Congressional and Legislative Affairs.
    Part of my responsibility in all of this is to make sure 
that if we have got bottlenecks within our own internal process 
that we eliminate those bottlenecks. And so that is an 
opportunity for us to manage that.
    As I mentioned, these subject matter experts enjoy the 
opportunity to come over and visit with Members and visit with 
staff. And I commit to you that we will work to make that a 
more responsive process.
    Mr. Michaud. I appreciate that very much because I remember 
when I was first on this committee, actually I got a directory 
of all the staff over at the Department of Veterans 
Administration, their phone numbers. So if I ever had a 
question, rather than, you know, go through OCLA or the under 
secretaries, we were able to actually--because a lot of times, 
these questions could be answered very quickly.
    When I became ranking member, I said, well, gee, I have not 
had a directory and they said, well, they do not have them 
which I know that, quite frankly, you must have a directory of 
all the VA. I can understand you do not want people calling in 
all the time, but it is problematic, particularly if OCLA feels 
that they have to be the filter.
    And I agree a hundred percent and I am glad you mentioned 
about the fact that they should be a facilitator because that 
is the role that they should be and that will help eliminate, I 
believe, some of the frustrations that we have over here on our 
side on that.
    So, once again, thank you very much for your response. I 
appreciate it.
    Mr. Gibson. Yes, sir.
    Mr. Michaud. I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    The vice chair of the committee, Mr. Bilirakis, is 
recognized for five minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    And thank you, sir, for your testimony.
    What do you think needs to happen moving forward to have 
100 percent QFRs and 100 percent of testimony submitted on 
time? More funding, more staffing, better management of the 
current resources? What do you think needs to happen?
    Mr. Gibson. Well, Congressman, I may not have understood 
the question exactly. In the case of timely submission of 
testimony, this fiscal year, we are delivering on time 96 
percent of the time and responses----
    Mr. Bilirakis. Why isn't it 100 percent of the time?
    Mr. Gibson. Sir, we were late 15 minutes with one piece of 
testimony for the 33 hearings that we have testified at this 
year. So our goal is a hundred percent and that is what we are 
aiming for. And we are at a hundred percent in timely 
submission of QFRs.
    Mr. Bilirakis. I----
    Mr. Gibson. And the opportunity, frankly, is for us to 
extend that kind of excellent performance in other categories 
of communication.
    Mr. Bilirakis. I want to move on to the next question.
    Mr. Gibson. Yes, sir.
    Mr. Bilirakis. I have limited time. Do you have process 
inquiries in the order they are received? Are they prioritized 
in any way?
    Mr. Gibson. In the process of trying to respond, just in 
the first six months of this year, we have responded to 2,675 
inquiries from Congress. So orchestrating those responses is a 
challenge when you look at all the different categories of 
response.
    Normally, particularly as it relates to executive 
correspondence, the correspondence from the chairman and from 
the ranking member is a category of correspondence that we put 
very high in the priority and we try to turn those around very 
quickly whenever possible.
    For executive correspondence coming from Members, the goal 
is to respond within 30 days. There are occasions when we 
should meet that standard and I do not believe that we are. 
There are other occasions where the nature of the request is 
such that it is pretty clear fairly early on that it is going 
to take more than 30 days to respond.
    And I think what we owe the Members of the Committee and 
the staff is that we pick up the phone or send an email and we 
work out a time frame that makes sense for us to be able to 
provide a timely and complete response.
    Mr. Bilirakis. All right. Thank you.
    Yes or no, did you know that the average number of days of 
all requests pending are 143 days? I know it was mentioned here 
in the committee. Why 143 days? Why that long? I just do not 
understand.
    Mr. Gibson. Congressman, are you referring to the number of 
days pending for the 96 items on Chairman Miller's list? I am 
not sure the----
    Mr. Bilirakis. Well, in other words, the average number of 
days all requests pending, 143 days, that is my understanding. 
The committee says an average of 143 days for all inquiries 
pending.
    Mr. Gibson. Congressman, I understand the frustration here. 
I am taking ownership and committing to improve response times.
    Mr. Bilirakis. Maybe the 96 currently on the list.
    Mr. Gibson. Okay. I----
    Mr. Bilirakis. Address that issue.
    Mr. Gibson. Yes, sir. I would tell you in the course of 
responding, say, for example, to the more than 2,600 inquiries 
that we have received this year or the more than 8,600 that we 
have responded to over the last 18 months, many of those 
responses are turned around very quickly, very much within that 
two-week or that 30-day standard.
    Mr. Bilirakis. Thank you. Let me move on to the next 
question.
    Mr. Gibson. Yes, sir.
    Mr. Bilirakis. Did you know that there were 50 inquiries 
over three months pending and why?
    Mr. Gibson. Where I was going with the other answer, I am 
going to kind of keep going with this answer. There are 
occasions where we receive, and many of the requests are the 
kinds of requests that we are able to respond to very timely 
within that two-week or within that 30-day time frame, but 
there are requests that we receive that by the nature of the 
request, the complexity of the request will require extensive 
gathering of data, extensive analysis of the data, and review 
of the data to ensure that we are providing the right 
information to respond to the question.
    Mr. Bilirakis. Okay.
    Mr. Gibson. And those are of necessity going to require 
longer. Now----
    Mr. Bilirakis. Thank you. Next question.
    Yes or no, are you aware that there are 66 inquiries over 
two months pending? I mean----
    Mr. Gibson. Well----
    Mr. Bilirakis [contining]. My opinion, it is inexcusable. 
We need this information timely to do our job.
    Mr. Gibson. Congressman, I understand that need. And we are 
committed to providing timely information. And where we are 
able to respond to requests within the goal standards that we 
set, we do that. But there are requests that we receive that 
there is just simply no way that within a two-week or a 30-day 
period of time that we are going to be able to provide an 
adequate response.
    And as a result of that, part of what needs to happen, part 
of the collaboration that I think we need to work toward is 
that we have the kind of robust communication that Ranking 
Member Michaud was referring to earlier that we are talking 
through this. We understand that the scope of the request is 
such that it is, going to require this extensive time and 
effort to gather.
    There may be things that the Member is willing to do to 
tailor the request a little bit, still accomplishing the 
underlying intent, that would allow us to deliver it more 
quickly or alternatively that there may be a little bit of 
relief in terms of the deadline and the expectation for a 
timely response.
    Mr. Bilirakis. All right. Thank you.
    Mr. Chairman. I want to give the other Members an 
opportunity. I appreciate it. Thanks for holding the hearing as 
well.
    The Chairman. Thank you.
    Ms. Brown, you are recognized for five minutes. And I do 
want to compliment you on your attire today.
    Ms. Brown. Go Gator.
    But welcome, Mr. Gibson, to the House of Representatives.
    Mr. Gibson. Thank you, ma'am.
    Ms. Brown. I know that the chairman is not going to be 
happy or the ranking member that they recognize me because I 
really am a little confused why we are having this hearing 
today. We just had a hearing six months ago.
    I do not find the department politics and when does the 
politics end and the service begin. I am hoping service is all 
the time because our role is to make sure that we are serving 
the veterans.
    And I would like to have a hearing on mental health and 
what are we doing as far as partnering with some local 
communities because those services are already there. And then 
VA should do more oversight because of the volume of the amount 
of work.
    And then there are certain instance, for example, when we 
are talking about someone that has gotten killed, it is some 
legal ramifications for you to come up here and say something 
to us when we may be in court on those issues.
    And the volume, I mean, it is not just this committee. It 
is the Senate. It is government oversight. So you get thousands 
of requests.
    And so how do we deal with all of that and who gets the 
priority? I want to say the priority should be the veterans. So 
you can respond to me.
    Mr. Gibson. Yes, ma'am. As I mentioned in my opening 
statement, I think the vast shared common ground that we have 
here is our interest in ensuring that veterans are best served.
    I think when we can build and maintain positive, 
constructive, collaborative relationships between Committees 
and the department that is the environment where the best 
outcomes are going to result, where veterans are going to be 
best served.
    And I am prepared. I am owning issues surrounding 
opportunities for improving responsiveness because I understand 
that that is important to the committee. I am going to make it 
important to me and it is important to the department, but 
collaboration really involves two parties.
    And so being able to work together collaboratively as 
Ranking Member Michaud outlined, I think, is a very positive 
step for veterans.
    Ms. Brown. Yes. Can you tell us the volume of requests that 
you have gotten from Congress?
    Mr. Gibson. I can tell you the number that we have 
responded to.
    Ms. Brown. Uh-huh.
    Mr. Gibson. In the first six months of this year, 2,675.
    Ms. Brown. Uh-huh.
    Mr. Gibson. In the last 18 months, just over 8,600 
requests.
    Ms. Brown. Uh-huh. And what is the staffing that you have 
to respond to this 8,600?
    Mr. Gibson. Well, ma'am, because we want to provide the 
best information that we possibly can, accurate information and 
complete information, in the vast majority of instances, a 
large portion of the response winds up being originally created 
inside the Veterans Health Administration, inside the Veterans 
Benefits Administration, inside the National Cemetery 
Administration by people that are actually charged with serving 
and caring for veterans on a day in and day out basis.
    So that workload gets distributed broadly across the 
organization, but then managed on a more central basis. It 
would be impossible for me to even guess at the number of 
people that are involved or the number of man hours that are 
involved in responding to all of those requests.
    Ms. Brown. I guess my question is, do they have any 
responsibility other than responding to Congress?
    Mr. Gibson. Oh, yes, ma'am. In fact, the majority of people 
that participate in developing responses to Congress are people 
that have direct responsibility for serving veterans.
    Ms. Brown. Okay.
    Mr. Gibson. They are people inside the administrations 
because nine times out of ten, the questions we receive are 
questions about service to veterans as they well should be.
    Ms. Brown. Uh-huh.
    Mr. Gibson. And so these are people very often that have 
direct responsibility in that area. And to the extent that they 
are spending time, and it is important to provide the 
appropriate information timely, it is important for us to 
provide that information to this committee and to other 
committees of Congress. That is how veterans are best served 
when we work together in that kind of way.
    Ms. Brown. And I have got to say that you all have been 
very responsive to me. Just yesterday, the head judge from 
Duval County was here. I wanted them to have a quick meeting 
with someone from the VA because we have the veterans court and 
it is working really well. And we have the mental health court 
and we were talking about what we could do to expand this 
program.
    So, you know, I personally will give you a response. I know 
we need to work together to improve the services for veterans.
    Thank you very much, and I yield back my time.
    Mr. Gibson. Thank you, ma'am.
    The Chairman. Thank you very much for the committee's 
information. The Office of Legislative Affairs since 2009 has 
increased 30 percent in regards to their ability to do their 
work as it relates to the requests that have been made.
    Dr. Roe, you are recognized.
    Mr. Roe. Thank you, Mr. Chairman
    And thank you for being here and thank you for taking some 
time to come by my office----
    Mr. Gibson. It is great to see you, sir.
    Mr. Roe [continuing]. And for the hearing. And thank you 
for the service, and your service to our country, too. And I 
appreciate your forthrightness in being able to get this 
information to us in a timely fashion.
    And as Mr. Michaud said, one of the frustrations I have had 
here and many Members here, I actually read this stuff and I 
cannot read it if I get a Sears and Roebuck catalogue the night 
before----
    Mr. Gibson. Yes, sir.
    Mr. Roe [continuing]. And make any sense out of it. So 
being timely, and I say this tongue in cheek, but here in 
Washington, I do not think anybody ever got a term paper done 
on time. And we know when these hearings are going to be and it 
would be nice to get this information and that you are getting 
it to us. Thank you very much.
    Mr. Gibson. Yes, sir.
    Mr. Roe. And I hope that continues where we get it a day or 
two ahead where we can actually go through it and get something 
meaningful out of----
    Mr. Gibson. Yes, sir.
    Mr. Roe [continuing]. The hearing. And another comment that 
Mr. Michaud made, well, you know, he did not want to call the 
office. Well, people call his office all the time. And he 
mentioned exactly what happened. I have a staff of seven people 
here because of the cutbacks and we are making it work.
    And a lady Sunday at church pulled me over aside about an 
issue that I was not aware of. We put some information out to 
the secretary of Labor. We have called the appropriate, two 
appropriate organizations and her. I did not get her this 
morning, but I left her a message. That is timely. And I was a 
little ashamed it was four days, three days to get back and get 
her the information she needed.
    We need this information to be able to carry out our jobs.
    Mr. Gibson. Yes, sir.
    Mr. Roe. We cannot do it without it.
    Mr. Gibson. Yes, sir.
    Mr. Roe. And I think the VA has the personnel to do what 
you need to do. And, look, if something, as Mr. Bilirakis said, 
is going to take--you mentioned some of these issues are very 
complicated. Somebody could send a letter in two weeks and say, 
look, this is a very complicated issue, we have looked this far 
in three paragraphs. I do not need the sermon on the mount.
    I just need a cliff notes version of what you are doing so 
that I know you have not forgotten me because I think it is 
rude and arrogant when you do that. I think when you ignore 
requests, it means that either it is not important to you or 
you do not think it is important to me. And I would not be 
making that request if it were not.
    So I would suggest you do that, send out an interim letter 
or some information so that we know that you have not just 
buried us and forgotten about it because we have thousands of 
issues we deal with every day.
    Mr. Gibson. Yes, sir.
    Mr. Roe. And we do not have 300,000 employees as the VA 
does. So just a comment on that. And I think those are a few 
little things you could do for me personally if I write you a 
letter and it may take you 90 days to get the information back. 
I understand that.
    And I also understand I do not know. That is a perfectly 
good answer, too. I have said that many times in my career. 
When I did not know something, just I do not know the answer to 
it, but we will get back to you. But do not say that and then 
never get back to me. I think that is okay not knowing the 
answer if I ask you a question or if you ask me one. I do not 
know. I will get back to you.
    So that is just a comment. I actually have no other 
comments. I yield back my time.
    Mr. Gibson. If I could just say, sir, what you just 
outlined is perfectly reasonable. That is a perfectly 
reasonable expectation and it is what we should be doing 
routinely.
    Mr. Roe. Thank you.
    The Chairman. Ms. Brownley, you are recognize for five 
minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    And thank you, Mr. Gibson, for testifying here today. And 
congratulations----
    Mr. Gibson. Thank you.
    Ms. Brownley [continuing]. On your recent appointment and 
confirmation.
    Mr. Gibson. Thank you.
    Ms. Brownley. And I know, as you know, you have been 
trusted as all of us on the committee have been with a great 
task and very important task of serving our Nation's veterans. 
And I am looking forward to working with you to ensure the 
needs are properly met in a timely manner and also in a 
qualitative manner as well.
    And I also want to thank you for our meeting yesterday----
    Mr. Gibson. Yes, ma'am.
    Ms. Brownley [continuing]. And your attention to my 
district where the wait time exceeds 44 days for mental health 
services. So I really do appreciate that very, very much.
    I wanted to ask really two questions. One, specifically, on 
the congressional legislative affairs office and the fact that 
in 2013, as you stated, we have made great improvements based 
on the data, and if you could just comment, what has changed? 
Why is it better? What has happened?
    And then secondarily, in your testimony, when you stated 
that it is not a Veterans Health Administration problem or a 
Veterans Benefit Administration problem; it is a Department 
issue.
    I know that you have only been with us here for six very--
six short weeks, but if you could, with fresh eyes, share with 
the committee what you think needs to be changed on a 
Department-Wide basis to be more customer friendly, and more 
service oriented--what changes, larger changes you see.
    So if you could speak, specifically, to the legislative--
congressional and legislative affairs office and speak more 
broadly on the Department.
    Mr. Gibson. Yes, ma'am. Thanks for the question.
    First, I would say that I think recognizing the importance 
of timely communication with this committee and frankly with 
other committees and other Members of Congress, and supported 
by the encouragement from the chairman and from this committee. 
I think a lot of additional attention was focused on 
specifically areas of timely receipt of testimony and timely 
delivery of responses to questions for the record and I think 
that very intensive focus is what allowed that progress to be 
demonstrated.
    Within the Department, it is a large and a complex 
organization, and so as you kind alluded to earlier, there are 
different parts of the organization that get involved in 
different kinds of ways, ranking member mentioned earlier that 
they are the process of review. And so as I wade into this 
space, my sense is there are opportunities for us to streamline 
the review process. I think there are perhaps some 
opportunities for us to establish interim milestones along the 
way when we have a relatively more complex item that we know we 
are going to have to respond to.
    And then, as we discussed a moment ago, the need for this 
routine and robust communication so that we understand; we are 
acknowledging that we have not only just--we have gotten the 
item, but we are working on the item. Here is how we think 
things are coming, and I would reiterate again, that the staff 
of the Office of Congressional and Legislative Affairs is on 
The Hill every week and they are always willing to provide an 
update to a member of your staff or to a member on any 
particular item.
    And so I think it is creating a more end-to-end process and 
creating more visibility about how we are doing it each step of 
the way, which will allow us to identify the bottlenecks that 
we were talking about earlier.
    Ms. Brownley. Well thank you for that, and I mean if there 
is anything more specific, you know, other than in terms of the 
legislative affairs office, you are saying just more focus, 
more attention to responsiveness and timeliness has made the 
difference in terms of the data in 2013. But is there anything 
more than that has specifically changed or it is just that sort 
of direction and focus?
    Mr. Gibson. I think there is more horsepower pushing this 
locomotive and that is one of the reasons that I am here. We 
are very focused on this. This is important. This relationship 
is not just important to us at VA; it is important to veterans. 
Because the veterans get best served when we are working 
together constructively, so we understand that. We understand 
that we are not meeting the expectation and that we have work 
to do. And so there is a lot more horsepower pushing the engine 
on this issue inside the Department.
    Ms. Brownley. Thank you, sir.
    I yield back.
    Mr. Gibson. Yes, ma'am.
    The Chairman. Thank you very much.
    Mr. Runyan, you are recognized for five minutes.
    Mr. Runyan. Thank you, Chairman.
    And, Deputy Secretary Gibson, thank you for your service 
and your testimony.
    Kind of going back to what you were just talking about, and 
you used the phrase ``horsepower,'' and thank you for the 
meeting we had yesterday. And I know you, Secretary Shinseki, 
all the time talk about accountability. Well, I want to put 
this out here and give a couple of examples of it. With 
accountability, you have to parallel that with consequences. 
And I have asked this question many times to many different 
under secretaries and the thing a lot of the times are what are 
the consequences? As we sit up here as elected members, 
everybody on this dais has consequences of them not executing 
their job; it is called an election.
    Our veterans have consequences not executing their job in 
the field; it is the lives of their comrades around them. I did 
the same thing when I played in the NFL. The consequence of not 
doing your job; you lost your job at the end of the day. Are 
there formal structures, formal procedures that you have, 
throughout your leadership model, to hold people accountable?
    We talk about accountability, but truly, who is being held 
accountable and what are the processes and procedures to do 
that within your model?
    Mr. Gibson. First of all, I would say, Congressman, that 
one of the things that has really struck me about my first six 
weeks in the Department is the passion that people have for the 
mission that we do; their determination to do the right thing; 
and the fact that they are working very, very hard to 
accomplish that mission.
    At VA, and I would say in any organization, the thought 
process begins with ensuring that clear standards are 
established, and then the leader's job is to make sure that the 
skills and the other resources associated with being able to 
meet that standard are available. And so when there are 
performance issues that arise in the wake of that kind of good 
foundation, then you start a process of constructive 
engagement, where you are trying to understand where the issues 
are.
    I would tell you from my own private sector experience, my 
experience inside VA is obviously very limited at this point, 
but in my private sector experience, rarely did that result in 
a firing, in a removal from a position. Because you work with 
somebody, often times the performance improved. In other 
instances, you would work with someone and they would self-
select out. They would retire. They would resign. They would 
step down to a position that is perhaps less challenging and 
within the scope of their ability. Rarely in the private sector 
does it result in firing someone. And so I know the secretary 
has said on numerous occasions that he believes that he has the 
authority that he needs to hold people accountable. I will tell 
you that there are elaborate performance measures in place 
across the organization that people are expected to meet and I 
believe there is a strong system of accountability in place.
    Mr. Runyan. And I thank you for the response, but I think 
what you are touching on there, it kind of comes back to a 
phrase you used yesterday in our meeting in talking about 
relationships, when you have a close, personal connection to 
those around you. And I think, you know, as the chairman and 
the ranking member have said, sometimes we don't have these 
relationships. We don't have a personal connection, a lot of 
times to the people we need the information from; there are 
barriers in there. That personal relationship has 
accountability to it----
    Mr. Gibson. Yes, it does.
    Mr. Runyan [continuing]. Because they feel like they are 
letting people down and that is the structure of a team. We are 
all on a team here to serve our veterans, and I think these are 
the barriers. You addressed in our meeting yesterday, we have 
to get there, though, and those accountability measures I think 
can be reached through more open dialogue and better 
relationships in the long run.
    Mr. Gibson. Well, if there is any mistaking here, let me 
clarify it. I am the accountable guy, and so I believe in the 
importance of those relationships, and believe me, as I walk 
out the door today when we are finished, that starts the work; 
that doesn't finish the work, because I am accountable back to 
you and every other member of this committee.
    Mr. Runyan. Thank you.
    And Chairman, I yield back.
    The Chairman. Thank you very much.
    I apologize, I am going to have to leave in just a minute, 
but I want to ask, specifically, since we are talking about 
transparency and accountability, and I think it is very, very 
important that we discuss it. Are you familiar with the report 
that NBC, here in Washington, just did about a VA employee that 
was involved in an incident, left, and then was hired back--
actually, I think the employee's name was Fillingham--are you 
familiar with that?
    Mr. Gibson. Mr. Chairman, I have read one news account of--
associated with that and that is the full extent of my 
knowledge of what you're talking about.
    The Chairman. Let me, just if I can, give you a little 
background. If the members will indulge the Chair for just a 
minute.
    Mr. Gibson. Yes, sir.
    The Chairman. In fact, Mr. Coffman, who chairs the 
oversight and investigative subcommittee sent a letter to the 
secretary on December 20th of 2013 and it was requesting Mr. 
Fillingham's personnel file, and the letter also asked that the 
request not be treated the same as a FOIA, or Freedom of 
Information Act request, from the general public. We haven't 
gotten a response. And so the question is: Why in the world 
would Mr. Coffman's letter go unresponded to when the Freedom 
of Information Act, by a news organization, was responded to 
weeks ago?
    And since we don't have a response from the VA on Mr. 
Coffman's letter, I am going to take this opportunity to ask 
these couple questions and maybe fill you in.
    Mr. Gibson. Thank you.
    The Chairman. The media reports that the police and federal 
investigators found that Fillingham drove a government vehicle, 
after drinking with two other VA employees. One of Fillingham's 
colleagues fell out of the truck while it was moving and that 
employee died.
    According to media reports, VA records show that Fillingham 
was later allowed to resign from VA, but was rehired by the 
Department just months later while he is still under federal 
investigation, and the media reports at a salary of $100,000.
    So the question is: Why isn't drinking and driving a 
government vehicle on VA business a fireable offense? Why would 
VA rehire an employee still under investigation for misconduct? 
Who decided to rehire Jed Fillingham? Why did they rehire him? 
And what is VA currently doing in response to this incident?
    And I only ask the question because we have waited since 
the latter part of December for an answer and you are who we 
have to ask.
    Mr. Gibson. Mr. Chairman, as I mentioned in response to an 
earlier question, the safety of staff, patients and veterans 
that we care for is of paramount importance to the Department.
    Also, as I mentioned, I am unfamiliar with the specifics 
surrounding this particular item. Any response is going to be 
nothing more than speculation on my part. I would like to have 
the opportunity to respond back to you.
    The Chairman. If I was the deputy secretary, I certainly 
would expect that somebody's probably watching this testimony 
now, either on television or webcast, that they would probably 
have an answer for you when you got back to the central office. 
So I would hope that we could very quickly have an opportunity 
to discuss what is going on.
    Because the facts, as they have been presented in the 
press, are more than egregious, and I think not only do the 
taxpayers, are they owed an explanation, but certainly the 
members of this committee are. And I will take you at your word 
that you will respond as quickly as possible once you get 
briefed up. It is a pretty bad incident, a pretty bad incident.
    Next--would be Mr. Walz
    Well, Mr. Walz, first of all, how did you get up there? You 
were down here.
    Mr. Walz. I know. They had me walk down there first and 
then I came back up as a little shaming or something. I'm not 
sure what is going on.
    The Chairman. Mr. Walz, you are recognized.
    Mr. Walz. Thank you, Chairman.
    And Deputy Secretary, thank you. In listening to this, I am 
very appreciative. I am appreciative of listening to all of the 
meetings you had with members. I know it is a challenging job, 
but as a graduate of West Point, an Airborne Ranger, and son of 
a B-17 tail gunner, and grandson of a soldier who fought at the 
Marne, your family is used to tough things, and so I appreciate 
your candidness on this. I think you hear the frustration, 
maybe on both sides of the aisle a little bit, and I understand 
and we will look at this: You are clearly speaking the language 
of everybody in this committee, that we are a team together, 
but we need to work as a team to make that happen.
    My suggestion, if it would be--and it is not necessarily a 
question--is a lot of these things can be started on the front 
end. One of the things we do is we never introduce legislation 
or try and do changes or anything like that unless we built the 
coalition of the VSOs, our constituents across the board.
    But I have to tell you, though, the one piece that is kind 
of missing--and I don't know if it is the nature of the 
legislative versus the administrative/executive side of 
things--we always feel like there is a bit of resistance, and 
why I say that is if we send a suggestion over for a bill, we 
want candid input. And what we end up getting--and members 
would know this, too, sometimes you have a standard form 
letter, but we joke in our office, if I sent a bill over 
recognizing today was Thursday, there would be lots of red 
flags coming up from VA of why that is not a thing that we can 
be with.
    And it is that type of thing that I think, then, is 
corrosive and leads to this long, drawn-out process where--and 
I don't--certainly, I think the point was made we don't want to 
put you in a tough position, have you testifying under oath on 
things where that is. But it is the partnership in this of 
working from the beginning of an issue collaboratively 
together.
    And you mentioned yesterday, which I was very appreciative 
of, Deputy Secretary, was this issue of creating some more 
informal means of talking and collaborating. That there is 
trust among folks who are entrusted with our Nation's veterans. 
Maybe elaborate a little bit of ways that we can do that, 
because I understand there are rules, there are regulations, 
there are open meetings, there are all those things, but 
sometimes all we are looking for is some informal feedback--Do 
you think this is a good idea or what does this actually mean? 
And what members hear is I will wait six months to get a canned 
answer that I knew I was already going to get.
    So it is the content of the answer, not just the time that 
matters, too.
    Mr. Gibson. Right. Congressman, you are hitting the nail on 
the head right here in terms of the kinds of collaborative 
relationship that best serves veterans. I think those kinds of 
informal contact--in any relationship, the ability to have 
regular, candid communication is one of the vital ways that you 
feed a relationship and that a relationship grows. I think that 
it's an opportunity for VA and this committee, and I will look 
forward to pursuing those kinds of opportunities, personally, 
and to making staff alike.
    Mr. Walz. Well, I think it builds trust is that, you know, 
we are not calling over to trap somebody into saying something, 
just running something by them: What do you think about this 
bill on speeding the backlog, do you really think it would 
help? And if we could get a candid, trusted response back, that 
impacts how we go about it or what we can get done, that would 
be incredibly helpful to me.
    And I think it would reduce your workload on this, and I 
would argue it would build stronger relationships and better 
legislation.
    Mr. Gibson. It is about finding ways to move together.
    Mr. Walz. And, again, I would be remiss if I wouldn't, as 
the co-chair with Chairman Miller of the--co-chair of the USO 
Caucus to thank you for your dedication when you were over at 
USO. It was bittersweet--I am glad you came over here--but I 
did not want to see you leave over there, because that is an 
important organization that you made even better, so thank you.
    And I yield back.
    Mr. Gibson. Thank you, Congressman.
    Mr. Bilirakis. [Presiding] Thank you, sir.
    Mr. Huelskamp, you are recognized for five minutes.
    Mr. Huelskamp. Thank you, Mr. Vice Chairman.
    I appreciate the opportunity to ask a few questions, and I 
think my colleague from New Jersey used the word that is most 
critical here and that is ``accountability.'' And I have a few 
questions here and I would like to see if we can address those.
    Deputy Secretary, there have been reported 19 preventable 
deaths nationwide, including six at the Columbia, South 
Carolina Center; three at the Augusta Medical Center due to 
delays in VA care. As I understand it, VA has refused to reveal 
the locations of the other ten deceased veterans, where they 
were seeking care. Can you tell us specific locations today for 
the other ten deceased veterans, where they were seeking care?
    Mr. Gibson. Congressman, any time an adverse event occurs, 
anywhere in VA and veterans are harmed, that is a very serious 
matter to us. There are extensive processes that we go through 
in VHA to investigate and to document and understand the 
circumstances surrounding those adverse events and to ensure 
that they don't occur elsewhere in the organization 
subsequently.
    I do not have particulars as it relates to those specific 
events. I would be glad to arrange for a member of the staff to 
brief your staff or to come by and brief you as well, sir.
    Mr. Huelskamp. Will you commit, though, to providing the 
information by the close of business day for the committee?
    Mr. Gibson. Sir, what I want to do is provide you the 
information that we can provide when we can provide it, and so 
I am not familiar with the workings on the homework that is 
being done on that particular issue.
    Mr. Huelskamp. We have ten deceased veterans and the VA has 
refused to reveal those locations. I think our veterans deserve 
to know where there was a delay in care that led to the death 
of a veteran. And as I understand it, the VA has refused to 
release those locations.
    So I will ask you by the end of the day, we will make 
another request: Will you please provide that to the committee, 
and I would appreciate that.
    The second issue deals with, again, on-going issue with 
Pittsburgh and Legionnaires' disease. We had a hearing on that, 
as I understand that, three days after the VA's Inspector 
General reported the mismanagement of the VA Pittsburgh 
Center's response to the disease outbreak, the director at that 
center received a $63,000 bonus.
    VA officials that repeatedly said that his bonus was under 
review, and then they allowed the gentleman to retire. Did 
anyone actually review the bonus? What is the status review, 
and when will it be completed? And I presume you don't know 
anything about this situation either, but I would appreciate a 
response to the committee on that particular issue, this on-
going bonus issue.
    And I would also like to know how many members of the 
Senior Executive Service in the past year received a bonus from 
the VA.
    And the last one, two issues that are related to--
specifically to responses. March of 2013 last year, my office 
received official confirmation from the VA that an outbased--
outpatient clinic in Liberal, Kansas would receive a physician.
    Last week I had an individual from that town was in my 
office and notified us that never did happen, and so 13 months 
later, after we were told it was happening, we were told by a 
constituent that it did, indeed, never did happen.
    I am just curious how the VA can give some information that 
turned out to be inaccurate, and wouldn't you expect a 
notification back to our office that said, Congressman, that 
didn't happen, there is still a vacancy and you still have 
three years without a physician in Liberal, Kansas.
    Can you describe what should be the proper response and 
whether you would be informing me in the future when you don't 
follow through on a request that was promised.
    Mr. Gibson. Congressman, I would say that in any kind of 
dialogue or conversation around an issue like that, when we 
have communicated information to a member and that information 
proves to be incorrect or the circumstances change, then we owe 
a follow-up conversation and communication to the member. That 
is part of building the kind of trusted relationship that needs 
to exist between the members of this committee and the 
Department.
    Mr. Huelskamp. And I appreciate that, and that did not 
happen. Again, a Kansan has to catch us and say, the VA didn't 
tell you, but we are still waiting on a physician in Liberal, 
Kansas.
    Further on--it is just outside of my district--there is a 
Topeka VA Center and still trying to understand why the 
emergency room was closed at this center, the VA, and I 
received no notification. Again, I heard about it at a town 
hall from a constituent. And it is hard to build trust when 
good information might be communicated, but these difficult 
situations and failures, the delays in care and refusal to 
answer questions makes it very difficult to visit with my 
constituents and honestly tell them that we are getting the 
full story from the VA.
    And with that, Mr. Chairman, I yield back.
    Mr. Bilirakis. Thank you.
    Ms. Titus, you are recognized for five minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Gibson, nice to see you.
    Mr. Gibson. Good to see you, ma'am.
    Ms. Titus. Thank you for taking time to join us this 
morning. I also want to thank you for your previous service at 
the USO and for working with me to get the facility at McCarran 
in Las Vegas. Every time I fly home, which is about every 
weekend, I am glad to see that USO is there.
    Mr. Gibson. Thank you, ma'am.
    Ms. Titus. Absolutely. And as you outlined in your 
testimony, I know that the VA receives an enormous amount of 
correspondence and requests. You may be one of the most 
micromanaged agencies in the Executive Department because we 
all have concerns and we all have constituents----
    Mr. Gibson. Yes, you do.
    Ms. Titus.--who are veterans.
    And I appreciate the offer that you have made to us in 
meetings and here today to work together better to provide 
accountability, to provide more information. Because this 
committee could be your biggest cheerleader if we have that 
information, but we need to know what is working well and what 
is not working so we can try to help you fix that. Just a 
couple of points of things that I have been concerned about and 
I think that you are aware of them, but I would just put them 
on the record again and hope to get more information down the 
road. One is the new veterans hospital in Las Vegas. It is a 
big, beautiful facility. We are very proud of it. Like any new 
facility, it is had growing pangs, but I am concerned that some 
of the things that are happening there like with the emergency 
room aren't taking into account some of veterans' input, some 
of the doctors' input. I hope that we can kind of be notified 
about changes and work together to make that transition better.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. I also want to ask you--again, I have done this 
before to the VA about the interim disability ratings. I have a 
bill that is pay-as-you-rate, so veterans can get some of their 
compensation as different parts of their cases are assessed.
    The VA can already do that, but they are not doing it. Only 
about eight percent of the cases have been allowed to have that 
interim payment, but I haven't gotten a good answer of why that 
is the case or why that is a problem and how we can work better 
on that.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. That has passed the House, and so we will see 
where it is going in the Senate. But if I know what your 
concerns are on how you can make it happen without the 
legislation, let me know.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. And finally, I have been very concerned and very 
vocal about the performance of the Reno regional office. It has 
one of the worst records, one of the longest backlogs, some of 
the troubled personnel. I have talked about this many times.
    They brokered half of their cases, so they brought down 
their backlog, but it is by sending half of their cases to 
other places. And we hear from the VSOs and from individual 
veterans that they can't now track it, that there is a lack of 
communication on these brokered cases. So if there is some way 
that we can look at a communication plan that includes all the 
stakeholders, I think there will be a lot more confidence in 
the fact that their cases are being sent somewhere else, and 
those that are left at the regional office are going to be 
addressed in a way that is appropriate; it's not that you are 
just getting rid of cases, you are solving problem as well.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. So those are areas that I am working on. I 
appreciate your input and your help on this, and I thank you 
for being here.
    Mr. Gibson. Yes, ma'am. I understand.
    Ms. Titus. And I yield back.
    Mr. Bilirakis. Mr. Coffman, you are recognized for five 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Thank you, Secretary Gibson for being here today.
    I want to tell you that after hearing your testimony today, 
I can't tell you how disappointed I am. I think you are 
dedicated to not making a difference. Because for you to come 
before this committee and conflate the numbers that come--the 
correspondence that comes from all congressional offices about 
questions about individual VA cases that usually stem from the 
district level, without breaking out the numbers that come from 
this office that are based on our oversight responsibilities--I 
think is stunning, and I think that tells me is what we are 
going to get out of your leadership, or lack thereof, is just 
more of the same. More of the same, that you are dedicated to 
making sure that things don't change.
    You ought to be outraged. You ought to be outraged at the 
length of time it takes for VA to respond to the members of 
this committee on their oversight role.
    Look, we had a hearing on February 13th of last year and I 
asked Dr. Petzel who was testifying before this committee on 
mental health issues that he had mentioned a survey that was 
completed four weeks prior to his testimony, about--it was VA 
providers--what VA providers are saying about the work being 
done related to mental health care, and I asked for that and he 
said he would have it to me, close of business that day.
    I have not received it yet, and that is typical. That is 
not unusual. That is typical. And for you to come before this 
committee and say, everything's really fine, I am just going to 
make it a little bit better. Really? Just a little bit better? 
I mean come on. I just can't tell you how disappointed I am.
    And I just think that maybe that is how you see your job 
description, keeping information away from this committee, not 
giving us information, not transparency on behalf of the 
veterans that have served this country on behalf at the 
taxpayers who foot the bill.
    I yield back.
    Mr. Bilirakis. Okay. Ms. Negrete McLeod, you are recognized 
for five minutes.
    Ms. Negrete-McLeod. Thank you. I have no questions; 
however, I would like to say--I would like to thank the 
Department for handling quite a few things on my behalf.
    And just recently I called, last week during our week that 
we were home, I had a veteran that had come in who had felt 
that there was not attention given to the PTSD arena and he had 
some problems and I called when I came back last week. And they 
quickly responded to him. They called him and wanted to know if 
they could help him in any way and try to get an appointment 
quicker than he was having one over in Loma Linda, and so I 
just wanted to thank you for coming, and testifying before us.
    Mr. Gibson. Thank you, ma'am. Thank you for the feedback.
    Mr. Bilirakis. Dr. Wenstrup, you are recognized for five 
minutes.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    Mr. Gibson, I want to say thank you for your service to our 
country, and I am hopeful with you being here. I have worked 
with you on USO events in Cincinnati and have been nothing but 
impressed with the work that you have done there and we have 
had some pretty successful events and it has been a pleasure to 
work with you there.
    Obviously, we all have concerns and we all know that there 
are problems within the VA and in the communication with us a 
lot of times. And I have come to find in the years that I have 
been here that sometimes people in the VA don't know what they 
don't know; for example, on the healthcare side, we had a 
committee of doctors here and I asked the doctors if any of 
them had ever been in the private sector in managing hospital 
systems and they haven't. So they have been in a system--they 
have been in academia, you know, where they are salaried. They 
don't have to make ends meet necessarily; that is not an issue.
    And as a doctor in the army, I served in DoD facilities 
where I know the inefficiencies there--not that the care is 
bad--but the fact that I can only see 15 patients in a DoD 
facility, wherein in my private practice, I would see 45 to 50 
in the same amount of time.
    These are the types of things that the people that are 
running, they don't know that. They have never been that, and 
for the last year I have offered to go into the hospitals, into 
the clinics, into the ORs, and talk about what could be done to 
improve things.
    And when we had a hearing recently, I asked can you tell 
me, for example, patients in an eight-hour day in the clinic, 
an orthopaedic surgeon sees?
    And they said, We have no idea.
    And so then what are you measuring--and this was the doctor 
trying to evaluate the efficiencies--I said what are you 
measuring?
    We are making some headway on that. We are going to get 
some time, and hopefully we can make a difference here. I mean, 
I am here and I want to be part of the solutions, not just 
complain.
    But at the same time we had a breakfast five weeks ago and 
I hand-delivered a letter to General Shinseki asking about the 
prescription drug monitoring program that we have one in Ohio 
where we share information amongst the medical professionals, 
amongst doctors to know who is getting what narcotics and where 
so that we are not over prescribing or that we tend to try to 
help somewhere--someone, rather than continue to prescribe 
unnecessarily. The VA is able to get that information from the 
private sector in Ohio, but the private sector can't get it 
from the VA. And I asked why are we still behind on that, and I 
have received nothing back, and I hand-delivered that.
    At the same time, you know, I asked Dr. Petzel one time and 
he said, Well, it is an IT problem.
    Well, why is it an IT problem?
    Because the funding has been there. So our doctors in Ohio 
cannot get that information.
    So here is the situation: Now, five weeks you were at that 
breakfast and I want to know why; I haven't been heard from, I 
haven't heard anything.
    Mr. Gibson. Congressman, first of all, thank you for the 
willingness to engage positively, particularly in light of your 
background, and experience and your professional training and 
credentials; it is a valuable resource to the VA and I am 
grateful that you would be willing to do that.
    We owe you an answer and I will see that we get you a 
status update promptly.
    Mr. Wenstrup. I appreciate that, but that is the type of 
thing that everyone is talking about, and I know that you 
haven't been on the job very long----
    Mr. Gibson. That's right.
    Mr. Wenstrup [continuing]. And I recognize that it is a 
mountain to climb, and, again, knowing you personally, I think 
that you are the man that can get that job done, but you have a 
lot on your hands and I will pin some high hopes on you.
    Mr. Gibson. Thank you, sir.
    Mr. Wenstrup. Thank you.
    Mr. Bilirakis. Thank you very much.
    Any further questions?
    All right. I----
    Ms. Brown. I have one.
    Mr. Bilirakis. You have a question?
    Ms. Brown. Yes, I do.
    Mr. Bilirakis. Okay. You are recognized.
    Ms. Brown. Thank you again for coming.
    But my question pertains to a couple of the members have 
said that they wanted something by the end of the day, and both 
of their issues sound like they are legal issues. How do you 
all handle a situation like that if the case is in court or 
under legal review? What kind of response could you give?
    Mr. Gibson. Well, I think the response, ma'am, will have to 
be shaped by the advice of counsel.
    Ms. Brown. Yes.
    Mr. Gibson. Whether there is outstanding litigation or 
whether there are privacy issues associated, either with 
patient matters or with employee matters, and so the response 
has to be shaped by that input, but we still owe a response.
    Ms. Brown. I agree, you owe a response, but the response 
may not be the in-depth detail as to what the person is asking, 
because basically, if you give it to us, we will read it in the 
press and if it is a legal situation, then, you know, we are 
not under oath.
    Mr. Gibson. Yes, ma'am.
    Ms. Brown. Uh-huh.
    Mr. Gibson. You are exactly right, but we owe you a 
response.
    Ms. Brown. Yes.
    Mr. Gibson. That is part of building the kind of 
collaborative relationship that we want to have. That is how we 
wind up working together to find ways to move forward. That is 
not just going back and forth; that is not constructive.
    Ms. Brown. I agree.
    And relationships are two ways and it is not just what we 
want; it is how we treat you, how we respond to you. It is a 
partnership. It is a marriage. It is what we are doing together 
for the veterans.
    And with that, I yield back the balance of my time.
    Mr. Bilirakis. Thank you very much.
    And I'd like to recognize now, the ranking member for 
whatever he would like, questions, statement, whatever.
    Make some comments, please. You are recognized, sir.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    First of all, I ask that Ms. Kirkpatrick's statement be 
included in the record. She had to leave earlier.
    The Chairman. So moved.
    Mr. Michaud. Thank you.
    Mr. Michaud. And once again, I want to thank you very much, 
Mr. Gibson. I am impressed be your testimony. I know that you 
have been at the Department for a short time, but also knowing 
your previous history with USOs that you are a good fit for the 
Department.
    And open collaboration, communication, and honesty is 
extremely important for this committee, for us to do our job 
because I do know that even though some members haven't brought 
up some of the issues, that my staff get a lot of requests from 
members of this committee saying, Well, why haven't we heard 
from OCLA yet? They come to us to complain about it.
    And so I think that the more we can have that open 
communication, the better off that we all will be, and some of 
the frustrations that you saw this morning from some members on 
both sides of the aisle, I think will help lower that 
frustration if we have that open, you know, line of 
communications.
    In a way, we can speed up the process, and one way that I 
thought of, that I mentioned in my opening statement was the 
subject-matter experts. I think that is one of the ways to 
speed up the process, but still, we have a ways to go in that 
area.
    But I looking forward to working with you, and once, again, 
thank you for your service, and thanks for being here today. 
Appreciate it.
    And with that, Mr. Chairman, I yield back.
    Mr. Bilirakis. Thank you. Thank you very much.
    And, sir, again, I know you have only been on the job for 
six weeks. I appreciate your service to our country and what 
you have done for the USO and your service here.
    But I will tell you we are very, very serious about this. 
We have got to see some improvement. You know, the members are 
frustrated and rightly so. Just like--I agree with the ranking 
member. We have got to get some answers quickly, and again, the 
lack of communication is extremely frustrating. If you don't 
have the answer or if you can't give the answer for legal 
reasons, get back to us. Let us know. We have to know that you 
are working on it.
    So, again, we have got to be able to do our jobs, and when 
we don't get these responses in a timely manner, it is very 
difficult to--it inhibits our ability to communicate to our 
constituents.
    So, please, I implore you to make some improvements. You 
know, there is no excuse. There is no excuse. You have the 
staffing, 30 percent increase since 2009, so let's get the job 
done. And I appreciate you being here today, and thank you for 
your testimony.
    Mr. Gibson. Mr. Chairman, message received, and I look 
forward to being with you on the 12th of April down in Tampa to 
cut the ribbon.
    Mr. Bilirakis. Excellent. Thank you.
    Thanks so such.
    If there are no further questions for Secretary Gibson, I 
asked unanimous consent that all members have five legislative 
days in which to revise and extend their remarks and include 
extraneous material into the hearing record.
    Thank you, the hearing--with no exceptions the hearing--no 
objections, the hearing now stands adjourned.
    Thank you very much. Appreciate it.
    [Whereupon, at 1:35 p.m., the committee was adjourned.]

                                APPENDIX
                                 <F-dash>

              Prepared Statement of Jeff Miller, Chairman

    Good morning and the hearing will come to order. As the 
title of today's hearing suggests, to conduct our 
constitutional oversight duties, VA needs to respond in a 
timely manner to our requests for information.
    With us today is Deputy Secretary Sloan Gibson. I would 
note that we again invited Assistant Secretary Mooney to 
testify since she is, by title, the assistant Secretary for 
Congressional and Legislative Affairs and as a presidential 
appointee, she agreed to testify before congress as part of her 
confirmation process.
    For the second time, we are gathered to hear how we can 
improve a process that too often has resulted in frustration 
and delay. Let me start with a positive. Since our last 
hearing, VA has improved its submission of testimony on time. 
So that is certainly an area where progress has been made. Mr. 
Secretary, I would also like to recognize what I view as a 
positive tone in your written testimony about improving the 
timely response to Committee requests. You are totally correct 
in that the Veterans Affairs' Committees and VA have a common 
duty to ensure we meet the nation's commitment to its veterans.
    Unfortunately, long-delayed responses for information, 
documents, or questions continue. As of Tuesday, the average 
days pending for all 96 requests was 143 with 66 pending over 
sixty days and 50 over one hundred days. In fact, we have 3 
requests pending since 2012 and our oldest outstanding request 
is 666 days pending.
    The last time we visited this subject with Assistant 
Secretary Mooney, she testified regarding the literally 
thousands of requests VA receives from Capitol Hill. I 
understand the reality, but I will continue the committee's 
active oversight of the department. As they should, Members of 
the House and Senate take great interest in VA and its programs 
because of its mission. That won't change on my watch.
    I understand there are lots of moving parts involving 
responses to our requests, many of which are outside VA's 
control but in the end, it is VA's responsibility to provide 
congress with complete, accurate and timely answers. 
Regardless, perhaps moving the issue up the chain of command 
will help improve VA's performance in this area, so Secretary 
Gibson, I thank you for testifying today.

                                 <F-dash>

     Prepared Statement of Michael Michaud, Ranking Minority Member

    Thank you Mr. Chairman.
    I share your view that this hearing is not just about 
accountability for individual Congressional requests, but also 
an opportunity to discuss what can be done to improve the 
relationship between VA and this Committee.
    Mr. Gibson, congratulations on your recent appointment as 
Deputy Secretary of the Department of Veterans' Affairs. We 
appreciate you being here today. I am, along with the Chairman, 
a bit disappointed that Assistant Secretary Mooney and 
Undersecretary for Health Petzel are not joining you at the 
witness table as they were invited.
    I am, however, encouraged by the shift in tone conveyed by 
your participation and written testimony. For the first time, 
the Department has clearly, concisely, and publically indicated 
the status quo must change. Thank you for that open and honest 
acknowledgement.
    Also, from your written testimony and our recent 
conversation, it appears you, as the Deputy Secretary and 
``Chief Operating Officer,'' are taking on the challenge from a 
Department perspective. I think that will be a significant 
improvement, and I look forward to working with you in a 
collaborative and constructive manner.
    As I have laid out in my discussions with the Secretary, I 
have three basic expectations of the VA around customer 
service.

        <bullet> My first expectation is that VA is responsive to 
        Congressional inquiries. While I recognize the founding 
        fathers' construct of the separation of power, I also recognize 
        their construct of checks and balances between these separate 
        powers. Oversight is a fundamental power provided Congress, and 
        a fundamental obligation. Getting information from the 
        Department is crucial to Congress doing its job. This is not a 
        theoretical civics discussion, but directly affects our 
        ability, as a co-equal branch of government, to do our job. 
        VA's responses to Congressional inquiries should be thoughtful, 
        thorough and complete.

    Since my recent conversation with Secretary Shinseki, a set 
of standard operating procedures addressing responsiveness 
between the Committee Democratic staff and VA's OCLA have been 
agreed to and put in place. These appear to be working well so 
far. I appreciate the VA OCLA team's willing to work out these 
SOPs, and adhere to them. I hold my staff accountable for 
adhering to our part of this agreement.

        <bullet> My second expectation is that VA is timely in its 
        response to Congressional inquiries. I recognize that 
        thoughtful, thorough and complete responses take time. I also 
        recognize that time moves at different paces in Congress and 
        the VA. This is not a judgment statement--merely an 
        acknowledgement that our work occurs at different speeds. 
        Congress should not expect VA to operate at our extremely rapid 
        pace. Nor should the VA expect Congress to operate at its 
        slower pace. Reasonable accommodation is somewhere in-between. 
        When a response is needed and what can be provided by that 
        date, and when a final response will be forthcoming, should be 
        a frequent, routine discussion between our staffs.

    Since the last Transparency hearing held by this Committee 
in September 2013, we have seen an improvement in the 
timeliness of VA testimony submissions and responses to 
Congressional inquiries. However, we continue to see 
substantial delays, from one to three months, on a few 
individual Member inquiries tracked by the Committee staff. I 
will defer to these Members to discuss the specifics with you 
directly.
    It is often difficult to get a straight answer on the 
reason for a delay in responding. It appears the lack of 
timeliness in VA responses to Congressional inquiries may, in 
part, be the cumbersome review process that responses are 
required to go through--both internal and external to the 
organization preparing the response. This, Mr. Gibson, is 
likely the toughest part of your challenge to improve the 
process. However, it behooves everyone involved in the review 
and approval process to work collaboratively to change and 
improve the process. No one benefits from frustrated, 
dysfunctional relationships between an Administration, Agency 
and Congress--least of all America's veterans.

        <bullet> My final expectation is that VA allows Congressional 
        Members and staff direct access to subject matter experts 
        within the Department. This means that the Office of 
        Congressional and Legislative Affairs facilitate, not control, 
        the interactions between VA executives and The Hill. For the 
        most part, in these interactions, in my opinion, OCLA's role 
        should be transparent to us.

    Last year, it took me--the Ranking Member of this 
Committee--three days to get the phone number for the 
Undersecretary for Health. I wanted to thank him for the great 
care one of my staff received at the VA Medical Center here in 
Washington, DC. That is simply unacceptable.
    Our staffs hear informally that VA's subject matter experts 
want to talk with us--they want to share the good news and 
progress they are making; they believe getting ahead of bad 
news is important; they understand that the trust you mention 
in your written testimony begins with open, honest 
communication. We in Congress understand the need and value of 
a synchronized message. The way to accomplish that is through 
internal Department coordination, not a single filter. 
Politicians know that during a campaign you try to control the 
message, but during the governing process that comes after the 
election, you need to collaborate around the message. Failing 
to do this typically means failure in the next campaign.
    Just recently, one of my staff members met a young soldier 
at a professional reception. He was there representing a new 
Army program to help soldiers transition from active duty. 
Unable to have a robust discussion about the program at the 
reception, the soldier agreed to follow-up with my staff. 
Within the week, that soldier and my staff exchanged several 
emails, met once and set up follow-on meetings for other staff 
and Members. There was no red-tape, no DoD or Army legislative 
affairs intervention, no delays, no complications. That, is 
what I expect from VA--just swift, simple, direct business.
    Mr. Gibson, I look forward to your testimony today. I look 
forward to hearing in more detail how you plan to change the 
process internal to VA. And, I look forward to hearing what you 
need from us in Congress to rebuild the trust and improve our 
working relationship.
    I yield back.

                 Prepared Statement of Sloan D. Gibson

    Chairman Miller, Ranking Member Michaud, Members of the 
House Committee on Veterans' Affairs: I appreciate the 
opportunity to testify on the Department of Veterans Affairs 
(VA) work to provide Congress with needed information.
    VA and Congress share the same goal: to do everything we 
can to improve the healthcare, benefits and other services 
delivered to our Nation's Veterans, their families, and 
Survivors earned through service. That is what guides our work 
at VA throughout the country.
    I want to acknowledge the dedicated professionals that work 
at VA. While more work remains, remarkable progress has been 
made in implementing Secretary Shinseki's top priorities: 
improving Veteran access to VA benefits and services, 
eliminating the claims backlog in 2015, and ending Veteran 
homelessness in 2015. As a Veteran who cares deeply about the 
welfare of Veterans and their families, I also want to express 
my gratitude for the passion, commitment and sustained support 
Congress continues to provide, both in resources and 
legislative authorities, for these critical initiatives.
    Everything we do at VA is built on a foundation of trust. 
We earn the trust of Veterans as we deliver, each day, on our 
promise to care for those ``who shall have borne the battle.'' 
We also have to earn the trust of the American people and their 
elected representatives. They provide the resources that allow 
us to serve Veterans, and they must have confidence that VA is 
a good steward of those resources. Anything that erodes this 
trust does tangible harm to Veterans.
    For the benefit of our Veterans, the status quo in our 
working relationship must change. The Committee is not 
receiving all the information it needs in a timely manner. From 
my perspective, this is not a VA Office of Congressional and 
Legislative Affairs (OCLA) issue. It is not a Veterans Health 
Administration or a Veterans Benefits Administration issue. It 
is a Department issue. That is why I am here. I am committed to 
working with the Committee in a collaborative and constructive 
manner to best serve our Veterans.
    We will do better. In fact, the data show that since the 
last hearing on this subject, in September 2013, our on-time 
performance for delivering testimony and Questions for the 
Record has improved dramatically. In that time period, 100 
percent of QFRs and 95 percent of written testimony were 
submitted on-time. Additionally, during the same time period, 
the Department has responded to over 1,000 requests for 
information from Congress. We can do more to improve the on-
time delivery of congressionally mandated reports and 
correspondence, and we are working aggressively in those areas. 
VA is committed to working with Congress to deliver needed 
information in a timely and accurate manner.
    It is important to note that VA is already providing vast 
amounts of information. In the first five months of this Fiscal 
Year VA has testified at 24 hearings, delivered 178 briefings, 
responded to 1,063 Requests for Information, responded to 187 
pieces of executive correspondence, completed 130 requests for 
Technical Assistance on legislation, and answered 653 Questions 
for the Record. By any standard, this is a remarkable volume of 
information.
    The level of care and services VA provides to Veterans 
every day has an impact on every Member of Congress because 
every Member represents Veterans in their district. Most 
Members of Congress also represent districts that have VA 
facilities that provide and maintain healthcare, benefits, and 
cemeteries. For that reason, VA receives a large number of 
requests from Congress. In FY 2013 and the first five months of 
FY 2014, VA Central Office responded to tens of thousands of 
Congressional requests for information.
    Moving forward, I want to ensure that VA and this committee 
are working together in a positive, constructive, and 
collaborative manner. Our Veterans expect that we expend our 
time and energy moving forward. That will require regular and 
open two way communication to insure that we are putting our 
resources toward those efforts that best support appropriate 
congressional oversight and lead to improved care and services 
for our Veterans.
    To reiterate, VA and Congress share the same goal: to do 
everything we can to improve the healthcare, benefits and other 
services delivered to our Nation's Veterans, their families, 
and Survivors. We respect Congress' important oversight role 
and look forward to working collaboratively and cooperatively 
together.
    I appreciate the opportunity to testify and am prepared to 
answer any questions you may have.

                 QUESTIONS AND RESPONSES FOR THE RECORD

                        QUESTIONS FOR THE RECORD

    Representative Kirkpatrick

    1. Unlike most federal agencies, the Department of Veterans 
Affairs touches each congressional district in a unique way--we 
all represent veteran communities. This means that VA garners a 
lot of attention from not only this committee, but the entire 
Congress. Outside of the requests for information from this 
committee, how many other requests does VA receive and respond 
to from the entire Congress?
    2. How does VA prioritize requests for information from 
Congress? Does the committee need to do a better job of 
prioritizing our requests?
    3. Mr. Gibson, as a new addition to VA, what are your first 
impressions of the department? What do you think VA does well 
and where do you believe there is room for improvement?

    Congressman G. K. Butterfield

    1. When the Department of Veterans Affairs is hosting an 
event in a state and participation from Members of Congress is 
desired, what procedures do VA regional personnel take to 
invite the proper elected officials to events?
    2. Who ultimately has oversight of VA's regional personnel 
in their dealings with Members of Congress? Is the VA Office of 
Legislative Affairs the best office within the Department to 
have ultimate oversight over VA's regional offices in their 
interactions with Members of Congress?
    3. How are invitations disseminated to Members of Congress 
and their offices? What are the procedures for following-up on 
these invitations?
    4. After the initial invite, how do VA regional office 
personnel communicate with Members of Congress and their staff?
    5. In dealing with Members of Congress, how do the regional 
VA offices communicate with your office in Washington, D.C. to 
update you on their interactions with Members and their staff? 
Who reports to whom and who is ultimately responsible for 
proper communication with Members and their offices?

                                 <F-dash>

                 QUESTIONS AND RESPONSES FOR THE RECORD

    Representative Kirkpatrick

     1. Unlike most federal agencies, the Department of 
Veterans Affairs touches each congressional district in a 
unique way - we all represent veteran communities. This means 
that VA garners a lot attention from not only this committee, 
but the entire Congress. Outside of the requests for 
information from this committee, how many other requests does 
VA receive and respond to from the entire congress?

    The level of care and services VA provides to Veterans 
every day has an impact on every Member of Congress because 
every Member represents Veterans in their district. Most 
Members of Congress also represent districts that have VA 
facilities that provide and maintain health care, benefits, and 
cemeteries. For that reason, VA receives a large number of 
requests from Congress.
    In the first six months of this fiscal year (FY) 2014, VA 
has testified at 32 hearings, delivered 213 briefings, 
responded to 1,346 requests for information, responded to 213 
pieces of executive correspondence, completed 143 requests for 
technical assistance on legislation, answered 723 questions for 
the record and responded to 9,748 constituent casework 
inquiries from the Central office level, additional primary POC 
on casework and notification at local VA offices.

     2. How does VA prioritize requests for information from 
Congress? Does the committee need to do a better job of 
prioritizing our request?

    We take all requests from Congress seriously and try to 
follow-up with answers in a timely and expeditious manner. We 
prioritize requests from Chairmen and Ranking Members of 
committees of jurisdiction, Congressional leadership, followed 
by any other request in the order that they are received. VA 
endeavors to work with the committee in a positive and 
constructive manner, and we would welcome any additional 
guidance the Committee may have on how we can best prioritize 
the requests.

    3. Mr. Gibson, as a new addition to VA, what are your 
impressions of the department? What do you think VA does well 
and here do you believe there is room for improvement?

    My most prominent and important first impression is of the 
people who work at VA. I see men and women, many Veterans 
themselves, that care deeply about VA's mission, that want to 
do the right thing, and work incredibly hard to get it done. I 
believe this is the motivating force that drives the people I 
have met at the VA.
    I believe the single most important opportunity for 
improvement is the need to do a better job conveying to 
Veterans, to the American people, and to their elected 
representatives the vast body of great work that is done for 
Veterans day in and day out. While there are opportunities for 
us to improve--as there always are in any large organization--
the fact is that VA delivers on its promise to hundreds of 
thousands of Veterans every single day. This simple fact must 
be the foundation of the trust vital to our relationship with 
those we serve and those who provide the resources essential to 
our mission.

    Representative G.K. Butterfield

     1. When Department of Veterans Affairs is hosting an event 
in a state and participation from Members of Congress is 
desired, what procedures do VA regional personnel take to 
invite the proper elected officials to events?

    The Department's protocol suggests inviting both U.S. 
Senators and the U.S. Representative of the facility's 
congressional district to speak, while inviting other Members 
of Congress and state officials to attend.
     2. Who ultimately has oversight of VA's regional personnel 
in their dealing with Members of Congress? Is the VA Office of 
Legislative Affairs the best office within the Department to 
have ultimate oversight over VA's regional offices in their 
interactions with Members of Congress?

    The local VA staffs are responsible to their individual 
offices in the Veterans Health Administration (VHA), Veterans 
Benefits Administration (VBA) or National Cemetery 
Administration (NCA). Given the volume and complexity involved 
in the management of the day-to-day local VA/congressional 
interactions, it is beneficial to utilize all available 
resources to include regional and local VA staff. The Office of 
Congressional and Legislative Affairs (OCLA) serves as the 
Department's primary point of contact for Members of Congress 
and their staffs on matters regarding policy, oversight, and 
Members' requests. The office maintains relationships and 
encourages the flow of information between VA and Members of 
Congress and congressional staff. OCLA should be the focal 
point for Department management and coordination of all matters 
involving Congress.

     3. How are invitations disseminated to Members of Congress 
and their offices? What are the procedures for following-up on 
these invitations?

    The Department's protocol includes recommendations on the 
development and distribution of invitations for special events. 
Local facilities are responsible for ensuring this guidance is 
incorporated into their local standard operating procedures.

    The Department's protocol includes recommendations on the 
development and distribution of invitations for special events, 
including following-up on invitations. Local facilities are 
responsible for ensuring this guidance is incorporated into 
their local standard operating procedures.

    4. After initial invite, how do VA regional office 
personnel communicate with Members of Congress and their staff?

    The Department's protocol includes recommendations for 
following-up on invitations, including requesting RSVPs. Local 
facilities are responsible for ensuring this guidance is 
incorporated into their local standard operating procedures.

    5. In dealing with Members of Congress, how do the regional 
VA offices communicate with your office in Washington, D.C. to 
update you on their interactions with Members and their staff? 
Who reports to whom and who is ultimately responsible for 
proper communication with Members and their offices?

    Regional and local offices communicate with VA central 
office through their respective chains of command in each 
administration and program office. Constituent issues are 
generally handled at the local level and national policy issues 
are handled by OCLA. OCLA works with the administrations and 
staff offices to advance responsive and effective congressional 
communications.

    OCLA is the focal point for Department management and 
coordination of all matters involving the Congress. OCLA serves 
as the Department's primary point of contact for Members of 
Congress and their staffs on matters regarding policy, 
oversight, and Members' requests. The office maintains 
relationships and encourages the flow of information between VA 
and Members of Congress and congressional staff.

                                 [all]

</pre></body></html>
